           U.S. Department
                                                    Memorandum
           of Transportation
           Office of the Secretary of
           Transportation
           Office of Inspector General

Subject:   INFORMATION: Audit Announcement                               Date:    October 22, 2009
           Oversight of Federal-aid Highway Projects
           Administered by Local Public Agencies
           Project Number 10U3001M000

  From:    Joseph W. Comé                                             Reply to    JA-40
                                                                      Attn. of:
           Assistant Inspector General
             for Surface and Maritime Program Audits

    To:    Federal Highway Administrator

           Local Public Agencies (LPAs) administer a large number of Federal-aid highway
           projects throughout the United States. A 2006 Federal Highway Administration
           (FHWA) report on LPA administration of Federal-aid projects found LPAs lacked
           systematic or comprehensive oversight. Subsequent to the report, FHWA’s Division
           Administrators were tasked to assess state LPA oversight and develop plans to correct
           any deficiencies identified. FHWA identified state oversight and LPA inexperience
           in handling Federal-aid projects as major risks in implementing the American
           Recovery and Reinvestment Act of 2009 (ARRA), which will increase Federal-aid
           LPA highway projects by an additional $8 billion over the next 3 years. Accordingly,
           the objective of the audit is to assess the effectiveness of FHWA’s process to improve
           state oversight of LPA projects.

           We will conduct the audit at FHWA Headquarters and Division Offices and selected
           state Departments of Transportation and related LPAs. We plan to begin audit field
           work in October 2009, and will contact your audit liaison to schedule an entrance
           conference. If I can answer any questions or be of further assistance, please contact
           me at (202) 366-5630 or David Pouliott, Program Director, at (202) 366-1844.

                                                     #


           cc:      Audit Liaison, OST, M-1
                    Audit Liaison, FHWA, HAIM-13
